Case: 20-16328, 10/19/2020, ID: 11864379, DktEntry: 4, Page 1 of 1
Case l:19-cv-01790-NONE-SKO Document 30 Filed 10/19/20 Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

OCT 19 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JUNE M. DOMINO,
Plaintiff-Appellant,
v.

CALIFORNIA CORRECTIONAL
HEALTH CARE SERVICES; AFSCME
LOCAL 2620,

No.

20-16328

D.C.No.
1:19-cv-01790-NONE-SKO
Eastern District of California,
Fresno
ORDER

Defendants-Appellees.
Before: W. FLETCHER, BERZON, and BYBEE, Circuit Judges.
Upon a review of the record and the response to the court’s August 24, 2020
order, we conclude this appeal is frivolous. We therefore dismiss this appeal as
frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time,
if court determines it is frivolous or malicious).
All pending motions are denied as moot.
DISMISSED.

MF/Pro Se

Case l:19-cv-01790-NONE-SKO Document 20 Filed 07/02/20 Page 1 of 2
1
2
3
4
5
6
7
8

UNITED

9

states district court

EASTERN DISTRICT OF CALIFORNIA

10
JUNE M. DOMINO, Ph.D.,
11
12
13
14

Plaintiff,
v.
CALIFORNIA CORRECTIONAL HEALTH
CARE SERVICES, et al.,
Defendants.

No. 1:19-cv-01790-NONE-SKO
ORDER ADOPTING FINDINGS AND
RECOMMENDATION REGARDING “EX
PARTE APPLICATION FOR ORDER TO
SERVE AND STAY FIRST AMMENDED
fSICl COMPLAINT”
(Doc. No. 13)

15
16

17

Plaintiff June M. Domino, Ph.D., is proceeding pro se and in forma pauperis in this action

18 against her former employer California Correctional Healthcare Services and labor union AFSCME
19 Local 2620. (Doc. Nos. 2, 3, 10.) Following the screening of her original complaint, plaintiff filed
20 her First Amended Complaint (FAC), the operative pleading, on March 24, 2020. (Doc. No. 10.)
21 Therein, plaintiff alleges causes of action under Title VII of the Civil Rights Act of 1964, 42 U.S.
22 C. § 2000e et seq., for hostile work environment and retaliation, and a cause of action under 42
23 U.S.C. § 1981 for racial discrimination. (See id.) Plaintiff also alleges a cause of action under state
24 law for negligent supervision. (See id.)
25

In the May 8, 2020 second screening order, the assigned magistrate judge found that

26

plaintiffs FAC did not state any cognizable claims and granted plaintiff one final opportunity to

27

amend her complaint to cure its noted deficiencies. (See Doc. No. 11.) Pursuant to a requested

28,

extension, plaintiffs Second Amended Complaint is due July 6, 2020. (See Doc. No. 15.)

Case l:19-cv-01790-NONE-SKO Document 20 Filed 07/02/20 Page 2 of 2
1

On May 12, 2020, plaintiff filed a document titled “Ex Parte Application for Order to Serve

2 and Stay First Ammended [sic] Complaint,” requesting that the Court “order a comprehensive
3 Federal Investigation into Defendants [sic] alleged acts of racism and retaliation” and issue a
4 “Temporary Order sustaining Plaintiffs compensation until such time that a complete and
5 comprehensive discovery of the facts are made known.” (Doc. No. 12.) On May 20, 2020, the
6 assigned magistrate judge issued findings and a recommendation that the ex parte application be
7 denied to the extent it requests the court to order a federal investigation and be denied without
8 prejudice to the extent it seeks preliminary injunctive relief. (Doc. No. 13.) The findings and
9 recommendations were served on plaintiff and contained notice that any objections thereto were due
10 within twenty-one days. (See id.) On May 29, 2020, plaintiff filed timely objections. i
11

In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C), this court has conducted a

12 de novo review of the case.

Having carefully reviewed the entire file, including plaintiffs

13 objections, the court finds that the findings and recommendation are supported by the record and
14 proper analysis.
15

ORDER

16
17

Accordingly, IT IS HEREBY ORDERED that:
1.

The findings and recommendation issued May 20, 2020 (Doc. No. 13), are

18

ADOPTED IN FULL; and

19 2.

Plaintiffs “Ex Parte Application for Order to Serve and Stay First Ammended [sic]

20

Complaint,” filed on May 12, 2020 (Doc. 12), is DENIED to the extent it requests

21

the court to order a federal investigation and is DENIED WITHOUT PREJUDICE

22

to the extent it seeks preliminary injunctive relief.

23 IT IS SO ORDERED.
24

Dated:

25

July 1, 2020
UNITED STATES DISTRICT JUDGE

26
27
28

1

Plaintiff also appealed the findings and recommendations, which appeal was dismissed for lack
of jurisdiction on June 26, 2020. (See Doc. Nos. 16, 19.)
2

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 1 of 9

1
2
3
4
5

6

UNITED STATES DISTRICT COURT

7

EASTERN DISTRICT OF CALIFORNIA

8

Case No. l:19-cv-01790-NONE-SKO

JUNE M. DOMINO,
9
10
11
12

Plaintiff,

FIRST SCREENING ORDER

v.

(Doc. 1)

CALIFORNIA CORRECTIONAL HEALTH
CARE SERVICES, et al.,
Defendants.

21-DAY DEADLINE
/

13
14
15
16
17
18
19
20

21
22
23
24
25

26
27

28

Plaintiff June M. Domino, proceeding pro se, filed a complaint on December 23, 2019,
against California Correctional Healthcare Services and “AFSCME Local 2620.”

(Doc. 1.)

Plaintiff purports to allege claims for employment discrimination under unspecified “Federal
Statutes” and “Federal Treaties.” (Id.) She demands “$44 Million” in damages. (Doc. 1-1.)
Plaintiff also filed an application to proceed in forma pauperis, which was granted on December
27,2019. (Docs. 2 & 3.)
Plaintiffs complaint is now before the Court for screening. As discussed below, Plaintiffs
allegations are conclusory and fail to plead Cognizable federal claims. Plaintiff is granted leave to
file a first amended complaint and is provided the pleading requirements and legal standards
under which her claims will be analyzed.
I.

SCREENING REQUIREMENT AND STANDARD

The Court is required to screen complaints in cases where the plaintiff is proceeding in
forma pauperis. 28 U.S.C. § 1915(e)(2). Plaintiffs complaint, or any portion thereof, is subject

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 2 of 9

1

to dismissal if it is frivolous or malicious, if it fails to state a claim upon which relief may be

2

granted, or if it seeks monetary relief from a defendant who is immune from such relief. 28

3

U.S.C. § 28 U.S.C. § 1915(e)(2)(B). If the Court determines that the complaint fails to state a

4

claim, leave to amend may be granted to the extent that the deficiencies of the complaint can be

5

cured by amendment. Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000) (en banc).

6

The Court’s screening of the complaint is governed by the following standards.

A

7

complaint may be dismissed as a matter of law for failure to state a claim for two reasons: (1)

8

lack of a cognizable legal theory; or (2) insufficient facts under a cognizable legal theory. See

9

Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1990). Plaintiff must allege a

10

minimum factual and legal basis for each claim that is sufficient to give each defendant fair

11

notice of what Plaintiffs claims are and the grounds upon which they rest. See, e.g., Brazil v.

12

U.S. Dep’t of the Navy, 66 F.3d 193, 199 (9th Cir. 1995); McKeever v. Block, 932 F.2d 795, 798

13

(9th Cir. 1991).

14

Under Federal Rule of Civil Procedure 8(a), a complaint must contain “a short and plain

15

statement of the claim showing that the pleader is entitled to relief. . . .” Fed. R. Civ. P. 8(a)(2).

16

Detailed factual allegations are not required, but “[tjhreadbare recitals of the elements of a cause

17

of action, supported by mere conclusory statements, do not suffice.” Ashcroft v. Iqbal, 556 U.S.

18

662, 678 (2009) (citing Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)).

19

determining whether a complaint states a claim on which relief may be granted, allegations of

20

material fact are taken as true and construed in the light most favorable to the plaintiff. See Love

21

v. United States, 915 F.2d 1242, 1245 (9th Cir. 1989). Moreover, since Plaintiff is appearing pro

22

se, the Court must construe the allegations of her complaint liberally and must afford Plaintiff the

23

benefit of any doubt. See Karim-Panahi v. Los Angeles Police Dep’t, 839 F.2d 621, 623 (9th Cir.

24

1988).

25

allegations.” Neitzke v. Williams, 490 U.S. 319, 330 n.9 (1989). “[A] liberal interpretation of a

26

civil rights complaint may not supply essential elements of the claim that were not initially pled.”

27

Bruns v. Nat’l Credit Union Admin., 122 F.3d 1251, 1257 (9th Cir. 1997) (quoting Ivey v. Bd. of

28

Regents, 673 F.2d 266, 268 (9th Cir. 1982)).

In

However, “the liberal pleading standard . . . applies only to a plaintiffs factual

2

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 3 of 9
1

Further, “a plaintiffs obligation to provide the ‘grounds’ of [her] ‘entitlement] to relief

2

requires more than labels and conclusions, and a formulaic recitation of the elements of a cause of

3

action will not do ... . Factual allegations must be enough to raise a right to relief above the

4

speculative level.” See Twombly, 550 U.S. at 555 (internal citations omitted); see also Iqbal, 556

5

U.S. at 678 (To avoid dismissal for failure to state a claim, “a complaint must contain sufficient

6

factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’ A claim has

7

facial plausibility when the plaintiff pleads factual content that allows the court to draw the

8

reasonable inference that the defendant is liable for the misconduct alleged.”) (internal citations

9

omitted).

10
11

II.
A.

DISCUSSION

The Complaint

12

Plaintiff filed a 27-page complaint, comprised of a pre-printed form and one exhibit, which

13

is a copy of an order entered in the case of Coleman v. Newsom, No. 2:90-cv-0520 KJM DB P,

14

2019 WL 6877885 (E.D. Cal. Dec. 17, 2019).

15

jurisdiction because she is bringing federal claims under “[F]ederal Statutes, as well as Federal

16

Treaties provides [sic] that U.S. Citizens shall be protected from employment discrimination on

17

the bases of Race, Age, Sex & Color for the purpose of ensuring that all citizen [sic] are treated

18

equally as guaranteed under the laws of the U.S. Constitution.” (Id.) Plaintiff appears to be

19

generally alleging that she was treated unfairly at her last place of employment based on her

20

membership in a protected class and that she was retaliated against for having taken some

21

unspecified action against her employer. (Id.)

22

B.

(Doc. 1.) Plaintiff indicates this court has

Analysis

23

The complaint does not contain a “short and plain” statement setting forth the basis for

24

federal jurisdiction, Plaintiffs entitlement to relief, or the relief that is sought, even though those

25

things are required by Fed. R. Civ. P. 8(a)(l)-(3). The exact nature of what happened to Plaintiff

26

is obscured by the complaint, which contains 27 pages and no clear allegations of particular

27

instances of violation of federal law, apart from legal conclusions that do not suffice to state a

28

claim. There is also no indication what relevance, if any, the December 17, 2019 order in

3

Case l:19-cv-01790-NONE-SKO Document 8

Filed 03/03/20 Page 4 of 9

1

Coleman v. Newsom, attached the complaint, has to Plaintiffs allegations.1 Further, Plaintiff

2

refers throughout her complaint to “Defendants” without identifying the specific wrongful acts

3

that each Defendant performed and how each Defendant either caused Plaintiff harm or is

4

responsible for Plaintiffs harm. In sum, the Court cannot tell from examining the complaint what

5

legal wrong was done to plaintiff, by whom and when, or how any alleged harm is connected to

6

the relief Plaintiff seeks.

7

1.

8

The Eleventh Amendment bars suits against state agencies, as well as those where the state

9

itself is named as a defendant, regardless of the relief sought. See P.R. Aqueduct & Sewer Auth. v.

10

Metcalf & Eddy, Inc., 506 U.S. 139, 144 (1993); Pennhurst State Sch. & Hosp. v. Halderman, 465

11

U.S. 89, 100 (1984); see also Dittman v. State of California, 191 F.3d 1020, 1025-26 (9th Cir.

12

1999).

Eleventh Amendment Immunity

13

Plaintiff names California Correctional Health Care Services as a defendant, but, as an

14

agency of the state, it is entitled to Eleventh Amendment immunity. See, e.g., Gomes v. Mathis,

15

No. CV 17-7022, 2018 WL 2085237, at *3 (C.D. Cal. May 3, 2018). The Eleventh Amendment

16

does not, however, bar suits seeking damages against state officials/employees in their individual

17

capacity. See Haferv. Melo, 502 U.S. 21, 30-31 (1991). Also, the Eleventh Amendment does not

18

bar suits for prospective declaratory or injunctive relief against state officials in their official

19

capacity. Pennhurst, 465 U.S. at 102-06. Therefore, it does not preclude Plaintiff from naming as

20

defendants those individuals involved in the alleged discriminatory and/or retaliatory conduct.

21

2.

22

To the extent that Plaintiff seeks to assert a claim under the Equal Protection Clause of the

23

Fourteenth Amendment to the United States Constitution, there is no direct cause of action for

24

constitutional amendments. Arpin v. Santa Clara Valley Transp. Agency, 261 F.3d 912, 929 (9th

25

Cir. 2001) (“[A] litigant complaining of a violation of a constitutional right does not have a direct

26

cause of action under the United States Constitution”). However, 42 U.S.C. § 1983 (“Section

27
28

Section 1983 and Equal Protection

1 The order in Coleman v. Newsom follows an evidentiary hearing on a whistleblower’s complaint regarding the
state’s compliance with prior orders in a case concerning understaffing of mental health treatment in California
prisons. See id., No. 2:90-cv-0520 KJM DB P, 2019 WL 6877885 (E.D. Cal. Dec. 17, 2019).

4

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 5 of 9

1

1983”) “is a method for vindicating federal rights elsewhere conferred.” Albright v. Oliver, 510

2

U.S. 266, 271 (plurality) (1994). Thus, an individual may bring an action for the deprivation of

3

civil rights pursuant to Section 1983, which states in relevant part:

4
5

6
7

Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding for redress.

8

42 U.S.C. § 1983. To maintain a Section 1983 civil rights action, a plaintiff must allege: “(1) that

9

the conduct complained of was committed by a person acting under color of state law; and (2) that

10

the conduct deprived the plaintiff of a constitutional right.” Balistreri v. Pacifica Police Dept.,

11

901 F.2d 696, 699 (9th Cir. 1990).

12

Private conduct, however discriminatory or wrongful, is not proscribed by Section 1983.

13

See Aasum v. Good Samaritan Hospital, 542 F.2d 792, 794 (9th Cir. 1976); see also Jensen v.

14

Lane Cty., 222 F.3d 570, 574 (9th Cir. 2000) (“Because § 1983 and the Fourteenth Amendment

15

are directed at the states, the statute supports a claim only when the alleged injury is caused by

16

‘state action’ and not by a merely private actor, against whom tort remedies may be sought in state

17

court.”). For private conduct to constitute state action, there must be “such a close nexus between

18

the State and the challenged action that seemingly private behavior may be fairly treated as that of

19

the State itself.” Lee v. Katz, 276 F.3d 550, 554 (9th Cir. 2002) (internal quotes omitted). In the

20

absence of this nexus, private conduct cannot constitute state action, and thus cannot violate an

21

individual’s constitutional rights, no matter how discriminatory that conduct may be. See Aasum

22

542 F.2d at 794 (finding that private conduct constitutes state action only when “the asserted

23-

discriminatory conduct is of constitutional dimension and results from action under color of state

24

law and the State has ‘significantly’ involved itself with invidious discrimination that the

25

prohibition results.”) (citing Reitman v. Mulkey, 387 U.S. 369 (1967)). Here, Plaintiff has named

26

as a defendant “AFSCME Local 2620,” but has not alleged any facts that this defendant’s actions

27

should be considered those of the state for purposes of the Equal Protection Clause or Section

28

1983 liability. Therefore, she has not met her burden to plead an essential element of her Section
5

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 6 of 9

1

1983 claim against this defendant. See, e.g., Pinkney v. Am. Med. Response, Inc., 520 F. App’x

2

502, 503-504 (9th Cir. 2013) (holding that the district court properly dismissed a Section 1983

3

claim against a service employees’ union because the plaintiff failed to allege facts showing that

4

the union was acting under color of state law); Ramos v. Tacoma Community College, No. C06-

5

5241FDB, 2006 WL 2038050, at *2 (W.D. Wash. July 19, 2006) (“A labor organization that

6

represents public employees is not by virtue of that fact a state entity for the purposes of Section

7

1983 claims.”) (citing Jordan v. Haw. Gov’t Emp. Ass’n, 472 F. Supp. 1123, 1130-1131 (D. Haw.

8

1979)).

9

Finally, “[t]he Equal Protection Clause requires the State to treat all similarly situated

10

people equally.” Shakur v. Schriro, 514 F.3d 878, 891 (9th Cir. 2008). To state an equal

11

protection claim under Section 1983, a plaintiff must typically allege that ‘“defendants acted with

12

an intent or purpose to discriminate against the plaintiff based upon membership in a protected

13

class.’” Furnace v. Sullivan, 705 F.3d 1021, 1030 (9th Cir. 2013) (quoting Barren v. Harrington,

14

152 F.3d 1193, 1194 (9th Cir. 1998)). Alternatively, where the claim is not that the discriminatory

15

action is related to membership in an identifiable group, a plaintiff can establish an equal

16

protection “class of one” claim by alleging that she as an individual “has been intentionally treated

17

differently from others similarly situated and that there is no rational basis for the difference in

18

treatment” in the departure from some norm or common practice. See Village of Willowbrook y.

19

Olech, 528 U.S. 562, 564 (2000). However, allegations that a defendant has merely done some

20

harmful act against the plaintiff, without more, fail to state an equal protection “class of one”

21

claim. See Nails v. Haid, No. SACV 12-0439 GW (SS), 2013 WL 5230689, at *3-5 (C.D. Cal.

22

Sept. 17, 2013).

23

Here, Plaintiff does not allege that any defendant took any action because of Plaintiffs

24

membership in an identifiable group or that any defendant treated her differently than other

25

specifically-identified similarly situated people with no rational basis.

26

whether Plaintiff is basing her equal protection claim on her membership in an identifiable class—

27

as she fails to identify the class to which she belongs—or as a “class of one.” Plaintiff has

28

therefore failed to state a cognizable claim for a violation of the Fourteenth Amendment’s Equal
6

Indeed, it is unclear

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 7 of 9

1

Protection Clause.

2

3.

3

To the extent Plaintiff is pursuing a discrimination and/or retaliation action pursuant to

4

Title VII of the 1964 Civil Rights Act, 42 U.S.C. § 2000e-5, et seq., she must establish federal

5

subject matter jurisdiction. See Cerrato v. San Francisco Community College Dist., 26 F.3d 968,

6

976 (9th Cir. 2009) (Congress has abrogated Eleventh Amendment immunity with respect to Title

7

VII claims). To establish such jurisdiction for a Title VII claim, a plaintiff must exhaust her

8

remedies by filing an administrative charge of discrimination with the Equal Employment

9

Opportunity Commission (EEOC) before commencing an action in federal court. B.K.B. v. Maui

10

Police Dept., 276 F.3d 1091, 1099 (9th Cir. 2002); Sommatino v. United States, 255 F.3d 704, 708

11

(9th Cir. 2001). Plaintiff has made no indication in her complaint that she has complied with the

12

exhaustion requirement. Furthermore, implicit in 42 § U.S.C. § 2000e-2 is that there must be an

13

employment relationship between the plaintiff and defendant for Title VII protections to apply.

14

See Adcock v. Chrysler Corp., 166 F.3d 1290, 1292 (9th Cir. 1999). The complaint is devoid of

15

facts to establish the existence of an employment relationship with either of the named defendants.

16

Lastly, to have a valid Title VII cause of action, Plaintiff must assert factual allegations in

17

her complaint that she was discriminated and/or retaliated against because of her race, color,

18

religion, sex, age, disability or national origin. In her complaint, Plaintiff merely states that

19

Defendants have “knowingly and willfully participated in criminal conduct designed to relegate

20

Plaintiff into object poverty” and that she is a “member of a protected class.” (Doc. 1 at 5, 6.)

21

Plaintiff does not include facts as to what person or entity subjected her to discrimination and/or

22

retaliation, and on what basis.

Employment Discrimination

23

4.

24

Finally, Plaintiff is advised that federal courts can only adjudicate civil cases authorized by

25

the United States Constitution and Congress. Generally, this includes cases in which: 1) diversity

26

of citizenship is established (the matter in controversy exceeds $75,000 and is between citizens of

27

different states), 2) a federal question is presented, or 3) the United States is a party. See 28

28

U.S.C. §§ 1331 and 1332; see also Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375, 377 (1994).

Jurisdiction of State Law Claims

7

1
Case l:19-cv-01790-NONE-SKO

Document 8

Filed 03/03/20 Page 8 of 9

1

If Plaintiff is unable to state a cognizable federal claim, such as a Section 1983 or Title VII

2

claim, the only way Plaintiff would be able to bring a state law claim (such as defamation and

3

negligence, see Doc. 1 at 6) in federal court is to establish complete diversity of citizenship, which

4

would require that the parties are citizens of different states. See Exxon Mobil Corp. v. Allapattah

5

Servs., Inc., 545 U.S. 546, 553 (2005). Here, Plaintiff and all defendants are citizens of California.

6

(See Doc. 1 at 2.) Therefore, diversity of citizenship cannot be established and this Court cannot

7

adjudicate any state law claims unless Plaintiff states a cognizable federal claim.

8

III.

CONCLUSION AND ORDER

9

The Court finds Plaintiff has failed to state a cognizable federal claim against any

10

defendant. As noted above, the Court will provide Plaintiff with an opportunity to amend her

11

claims and cure, to the extent possible, the identified deficiencies. Lopez, 203 F.3d at 1130.

12

Plaintiff may not change the nature of this suit by adding new, unrelated claims in her amended

13

complaint. George v. Smith, 507 F.3d 605, 607 (7th Cir. 2007) (no “buckshot” complaints).

14

Plaintiffs amended complaint should be brief, Fed. R. Civ. P. 8(a), but it must identify

15

what causes of action are being pursued, identify the improper actions or basis for liability of each

16

defendant, and the factual allegations must demonstrate plausible claims, Iqbal, 556 U.S. at 678-

17

79. Although accepted as true, the “[f]actual allegations must be [sufficient] to raise a right to

18

relief above the speculative level . . . .” Twombly, 550 U.S. at 555 (citations omitted). Finally,

19

Plaintiff is advised that an amended complaint supersedes the original complaint.

20

Maricopa Cty., 693 F.3d 896, 927 (9th Cir. 2012) (en banc). Therefore, Plaintiffs amended

21

complaint must be “complete in itself without reference to the prior or superseded pleading.” Rule

22

220, Local Rules of the United States District Court, Eastern District of California.

Lacey v.

23

Based on the foregoing, it is HEREBY ORDERED that:

24

1.

Plaintiff is granted leave to file a first amended complaint;

25

2.

Within twenty-one (21) days from the date of service of this order. Plaintiff

26

must file a first amended complaint curing the deficiencies identified by the Court

27

in this order, or a notice of voluntary dismissal; and

28

3.

If Plaintiff fails to file an amended complaint in compliance with this order.
8

Case l:19-cv-01790-NONE-SKO Document 8 Filed 03/03/20 Page 9 of 9
1

the undersigned will recommend to the assigned district judge that this action

2

be dismissed for failure to state a claim, to prosecute, and to obey a court

3

order.

4
5
6
7

IT IS SO ORDERED.
Dated:

March 3. 2020

/s/
id*
UNITED STATES MAGISTRATE JUDGE

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
9

\

APPENDIX D

Case l:19-cv-01790-NONE-SKO Document 7 Filed 02/Q3/20 Page 1 of 1
1
2
3
4
5
6
7
8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

JUNE M. DOMINO

CASE: 1:19-C V-01790-NONE-SKO

12

vs.

13

CALIFORNIA CORRECTIONAL HEALTH
CARE SERVICES, ET AL.

14
15

ORDER UNASSIGNING DISTRICT JUDGE

/
The court, having considered the inactive senior status of District Judge Lawrence J. O'Neill, finds

16 the necessity for unassigning the above captioned case, and for notice to be given to the affected parties.
17

IT IS THEREFORE ORDERED that:

18

The above captioned case shall be and is hereby UNASSIGNED and shall remain unassigned until

19

a new district judge is appointed. The new case number for this action, which must be used on all documents

20 filed with the court, is:
21

1:19-CV-01790-N ONE-SKO

All dates currently set in this reassigned action shall remain effective subject to further order of the

22 court. Parties are referred to the attached Standing Order in Light of Ongoing Judicial Emergency in the
23
24
25

Eastern District of California for more information.
DATED:

February 3, 2020

(A

26
27
28

KIMBERLY J. MUELLER, CHIEF
U.S. DISTRICT COURT JUDGE

Case l:19-cv-01790-NONE-SKO Document 7-1 Filed 02/03/20 Page 1 of 5
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11

JUNE M. DOMINO,

12

15

STANDING ORDER IN TIGHT OF
ONGOING JUDICIAL EMERGENCY IN THF.
EASTERN DISTRICT OF CALIFORNIA

Plaintiff,
v.

13
14

No. 1:19-CV-01790-NONE-SKO

CALIFORNIA CORRECTIONAL HEALTH
CARE SERVICES , ET AL.,
Defendant.

16
17
18

The judges of the United States District Court for the Eastern District of California have long labored
under one of the heaviest caseloads in the nation even when operating with a full complement of six authorized

19 District Judges.1 Each of those six District Judges has regularly carried a caseload double the nationwide
20 average caseload for District Judges. Even while laboring under this burden, the j udges of this court have
21

annually ranked among the top 10 districts in the country in cases terminated per judgeship for over 20 years.

22 See Letter regarding Caseload Crisis from the Judges of the Eastern District of California (June 19, 2018),
23

http://www.caed.uscourts.gov/CAEDnew/index.cfm/news/important-letter-re-caseload-crisis/ . On

24

December 17, 2019, District Judge Morrison C. England took Senior status. On December 31, 2019,

25

Senior District Judge Garland E. Burrell, Jr. assumed inactive Senior status. On February 2, 2020, District

26

i

For over a decade the Judicial Conference of the United States has recommended that this district be
authorized up to six additional judgeships. However, those recommendations have gone unacted upon. This
27 is the case despite the fact that since the last new District Judgeship was created in the Eastern District in
1978, the population of this district has grown from 2.5 million to over 8 million people and that the Northern
28 District of California, with a similar population, operates with 14 authorized District Judges.
1

Case l:19-cv-01790-NONE-SKO Document 7-1 Filed 02/03/20 Page 2 of 5
1

Judge Lawrence J. O'Neill will assume inactive Senior status.2 As a result of these long anticipated events,

2 the shortfall injudicial resources will seriously hinder the administration ofjustice throughout this district, but
3

the impact will be particularly acute in Fresno, where the undersigned will now be presiding over all criminal

4 and civil cases previously assigned to Judge O'Neill as well as those already pending before the undersigned.
5

As of the date of this order, this amounts to roughly 1,050 civil actions and 625 criminal defendants. Until

6 two candidates are nominated and confirmed to fill this court's two vacant authorized district judgeships, this
7

situation can only be expected to get progressively worse.

8

The gravity of this problem is such that no action or set of actions undertaken by this court can

9 reasonably be expected to alleviate it. Nonetheless, this order will advise litigants and their counsel of the
10 temporary procedures that will be put in place for the duration of this judicial emergency in cases over which
11

the undersigned is presiding. What follows will in some respects be contrary to the undersigned's default

12

Standing Order in Civil Actions,3 and may also differ from the Local Rules of the Eastern District of

13

California. To the extent such a conflict exists, the undersigned hereby invokes the court's authority under

14 Local Rule 102(d) to issue orders supplementary or contrary to the Local Rules in the interests ofjustice and
15

case management.

16 A.

DESIGNATION OF CIVIL CASES

17

As of February 3, 2020, all civil cases previously assigned to Judge O’Neill, and all newly filed cases

18 that will be assigned to his future replacement, will be unassigned. Those cases will bear the designation
19

“NONE” as the assigned district j udge and will continue to bear the initials of the assigned magistrate judge.

20 Until new judges arrive, the undersigned will preside as the district judge in the cases so designated. Judge
21

O’Neill’s chambers staff will remain in place for seven months following his departure from the court.

22

Accordingly, his remaining staff will continue to work on the cases bearing the "NONE" designation and

23

Courtroom Deputy Irma Munoz (559-499-5682; imunoz@caed.uscourts.gov) will continue to be the contact

24

person with respect to any questions regarding those cases. Proposed orders in those cases are to be sent to

25
26

2 In short, a Senior District Judge is one who has retired from regular active service, usually based on age
and length of service, but continues to preside over cases of a nature and in an amount as described in 28
U.S.C. § 371(e). A Senior District Judge taking inactive status is one who has ceased to perform such work.

27
28

3 The undersigned’s standing order in civil cases is available at http://www.caed.uscourts.gov/caednew/
assets/File/DAD%20Standing%200rder052019.pdf
2

Case l:19-cv-01790-NONE-SKO Document 7-1 Filed 02/03/20 Page 3 of 5
1

noneorders@caed.uscourts.gov. Finally, any hearings or trials before the undersigned in cases bearing the

2

"NONE" designation will continue to be held in Judge O'Neill's former courtroom, Courtroom #4 on the 7th

3

Floor at 2500 Tulare Street in Fresno, California.

4 B.

CIVIL LAW AND MOTION

5

It has been the strong preference of the undersigned over the past twenty-three years to hear oral

6 argument on all civil motions. In the undersigned&rsquo;s experience, doing so allows the court to more fully
7

grasp the parties' positions and permits the parties to address the court's concerns without the need for

8

supplemental briefing. However, given the judicial emergency now faced by this court, such hearings on

9 civil law and motion matters will no longer be feasible. Accordingly, all motions filed before the undersigned
10

in civil cases will be deemed submitted upon the record and briefs pursuant to Local Rule 230(g). The

11

hearing date chosen by the moving party will nonetheless govern the opposition and reply filing deadlines

12 pursuant to Local Rule 230(c). In cases bearing the "DAD" designation, the noticed hearing dates will
13

remain the first and third Tuesdays of each month. In cases designated as "NONE," the noticed hearing

14 dates may be any Tuesday through Friday. In the unlikely event that the Court determines a hearing would
15

be helpful and feasible, the court will re-schedule a hearing date in accordance with its availability.

16

In addition to the motions already assigned to magistrate judges by operation of Local Rule 302(c),

17 the undersigned now orders that the following categories of motions in cases bearing "DAD" and "NONE"
18 designations shall be noticed for hearing before the assigned magistrate judge:
19

1.

Motions seeking the appointment of a guardian ad litem;

20

2.

Motions for class certification and decertification pursuant to Federal Rule of Civil Procedure 23;

21

3.

Motions seeking preliminary or final approval of collective or class action settlements; and

22

4.

Motions to approve minors' compromises.4

23

The undersigned will surely refer other motions to the assigned magistrate judge for the issuance of findings

24 and recommendations by separate orders in particular cases.
25 lllll
26 lllll
27 4 Magistrate judges may resolve motions seeking the appointment of a guardian ad litem by way of order,
while all other motions may be resolved by issuance of findings and recommendations. See 28 U.S.C.
28 § 636(b)(1)(A).
3

Case l:19-cv-01790-NONE-SKO Document 7-1
1

C.

2
3

Filed 02/03/20 Page 4 of 5

CIVIL TRIALS
In the two civil caseloads over which the undersigned will be presiding for the duration of this judicial

emergency, there are currently trials scheduled through the end of 2021. Given the enormous criminal

4 caseload that will be pending before the undersigned and based upon the reasonable assumption that at least
5

some of those criminal cases will proceed to trial, it is unlikely that those civil cases will be able to proceed

6 to trial on the currently scheduled date.5 Thus, the setting of new trial dates in civil cases would be purely
7 illusory and merely add to the court’s administrative burden of vacating and re-setting dates for trials that
8

will not take place in any event. Accordingly, for the duration of this judicial emergency and absent

9 further order of this court in light of statutory requirements or in response to demonstrated exigent
10 circumstances, no new trial dates will be scheduled in civil cases assigned to "DAD" and "NONE"
11

over which the undersigned is presiding.6 As such, scheduling orders issued in civil cases over which

12 the undersigned is presiding will not include a trial date. Rather, the final pretrial conference will be the last
13

date to be scheduled.7

14

Particularly in light of this judicial emergency, parties in all civil cases before the undersigned are

15

reminded of their option to consent to magistrate judge jurisdiction pursuant to 28 U.S.C. § 636(c). The

16 magistrate judges of this court are highly skilled, experienced trial judges. Moreover, because magistrate
17 judges cannot preside over felony criminal trials, trial dates in civil cases can be set before the assigned
18 magistrate judge with a strong likelihood that the trial will commence on the date scheduled.
19 Illll
20 5 Even in those instances where a trial date has been set, such trial dates will be subject to vacatur with little
to no advance notice due to the anticipated press of proceedings related to criminal trials before this court,
21 which have statutory priority over civil trials. In any civil action that is able to be tried before the undersigned
during the duration of this judicial emergency, the trial will be conducted beginning at 8:30 a.m. Tuesday
22 through Thursday. The court will have calendars for criminal cases bearing a "DAD" assignment on Monday
at 10:00 a.m. and for those criminal cases bearing the "NONE" designation on Friday at 8:30 a.m.
23
6 Any party that believes exigent or extraordinary circumstances justify an exception to this order in their
24 case may file a motion seeking the setting of a trial date. Such motions shall not exceed five pages in length
and must establish truly extraordinary circumstances. Even where such a showing is made, the parties are
25 forewarned that the undersigned may simply be unable to accommodate them in light of the court's criminal
caseload.
26
7 Final Pretrial Conference dates may be later vacated and rescheduled depending on the court’s ability to
27 rule on dispositive motions that are filed. Moreover, in those “NONE” and "DAD" designated civil cases
with trial dates, the parties are hereby ordered not to file any pretrial motions in limine prior to the issuance
28 of the Final Pretrial Order and to do so only in compliance with the deadlines set in that order.
4

Case l:19-cv-01790-NONE-SKO Document 7-1
1
2
3

Filed 02/03/20 Page 5 of 5

CONCLUSION
These are uncharted waters for this court. The emergency procedures announced above are being
implemented reluctantly. They are not, in the undersigned's view, conducive to the fair administration of

4 justice. However, the court has been placed in an untenable position in which it simply has no choice.
5

There will likely be unforeseen consequences due to the implementation of these emergency procedures

6 and the court will therefore amend this order as necessary.
7

DATED:

February 3, 2020

/>■

8
9

DALE A. DROZD
U.S. DISTRICT COURT JUDGE

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
I

5

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 1 of 10

1
2
3

June M. Domino, Ph D.
IN PROSE
Post Office Box 1262
Madera, CA 93639
(310)591-6145

DEC 02 2020 ,j

4

CLER
EASJTERJ

5

BY

BspyimtSft’"

6

UNITED STATES DISTRICT COURT

7

FOR THE EASTERN DISTRICT OF CALIFORNIA

"

8
9

JUNE M. DOMINO, Ph. D

10

Plaintiff,

11

CASE NO. 1:19-cv-01790-NONE-SKO
MOTION TO SET-ASIDE COURT INSTRUCTION

vs.

MEMORANDUM OF POINTS & AUTHORITIES

13

CALIFORNIA CORRECTIONAL HEALTH CARE
SERVICES; AFSCME LOCAL 2620; and,
DOES 1-50 et al.

14

Defendants.

12

DECLARATION OF JUNE M. DOMINO
The Honorable Shelia K. Oberto, Presiding.

15
1.

16
17

INTRODUCTION

COMES NOW Plaintiff June M. Domino petitioning the Court in a Motion to Set-Aside its latest

I

18
19
20

21
22
I

23
24

25
26

!

27

28
i

I
;

Court Instruction described by the Court Docket as a Text Entry Only, Item Number 32; wherein the Court
Instructs Plaintiff to submit a Second Amended Complaint Plaintiff originally filed her initial Complaint by
using the District Court’s Packet entitled, SIMPLE GUIDE TO FILING A CIVIL ACTION. UNITED
STATES DISTRICT COURT, EASTERN DISTRICT OF CALIFORNIA. Once again, we note that the title
of documents used to file the initial Complaint is significant because contained within said package on Page 5,
Section m, Statement of Claim are found in pertinent part these words “Write a short and plain statement of
the claim. Do not make legal arguments. State as briefly as possible the facts showing that each Plaintiff is
entitled to the damages or other reliefsought." Notwithstanding Plaintiffs submission of her Complaint
utilizing die Court’s pre-printed forms, the Court insist upon holding this moving party to a higher legal
standard. Plaintiff remains a litigant in Pro Se and continues to invoke the following reserves that are applied to
all Pro-Se Litigants:
CASE NO. 1:19-CV-01790-NONE-SKO - 1

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 2 of 10

l
2

Haines v. Kemer. 404 U.S. 519 Cl9721 which states in pertinent part “...allegations such as
those asserted by a petitioner, however, unartfully pleaded, are sufficient,” “...which we hold to
less stringent standards of perfection as lawyers.”

3
4

5

7

Finally, Plaintiff also asserts “...the right to file a lawsuit Pro Se is one of the most
important rights under the constitution and laws.” fElmore v. McCammon (19861
640 F. Sudd. 905.1

8

Therefore, Plaintiff request that the Court shall take Notice of the circumstances which motivated the

6

9

I

i

I

:

Plaintiff in Pro Se also recalls by reference herein Jenkins v. McKeithen. 395 U.S. 411.421
f19591: Picking v. Pennsylvania R.Co„ 151 Fed 2nd 240: Pucket v. Cox. 456 2nd 233. “Pro se
pleadings are to be considered without regard to technicality: pro se litigants’ pleadings are not
to be held to the same high standards of perfection as lawyers.”

Court’s latest instruction. On Wednesday, October 19,2020, the U.S. Court of Appeal dismissed a Notice of

10

Interlocutory Appeal. This litigant in Pro Se never filed a Notice of Interlocutory Appeal, rather this remains a term

11

of art used by die Court not by the litigant. More specifically, the problem with the Appellate Court’s Dismissal is

12

that the Court made its decision without ever looking at die “evidence”. Herein lies the problem, anytime a Court of

13

law renders a legal decision without examining the “evidence” it is an attack on our “rule of law” and a defilement

14

of our “Democracy”. Sadly enough, such a radical move by our Courts creates for this litigant both a Legal and

15

Civic obligation to sound the alarm not only for myself, and for others who lacked the courage and the wherewithal

16

to notify the Courts; but perhaps even more importantly, in a genuine attempt to protect our Democracy. For this

17

reason, this aggrieving Plaintiff is forced to file a Petition for a Writ of Certiorari and has begun this legal process.

18

This discussion is most relevant because on November 12,2020, merely Two (2) days after the Appellate

19

Court issued a Mandate on this subject, the lower Court at the direction of Magistrate Judge Shelia K. Oberto issued

20

a Minute Order instructing this Plaintiff to file a second amended complaint. Said Minute Order would deprive this

21

Litigant in Pro Se from pursuing a Writ of Certiorari within the timeframe historically established by the United

22

States Supreme Court Rules of Civil Procedure Sections 10-14. Said citation allows a Plaintiff, regardless of their

23

Race, Sex or Creed a Ninety (90) day window within which a Petition for Writ of Certiorari must be filed. In the

24

specific case now pending before this court, the Plaintiff’s Petition for Writ of Certiorari would be due Ninety (90)

25

days from November 10,2020 which is the date that the Appellate Court issued its Mandate.

26

This latest instruction from the U. S Eastern District Court attempts to hold this Litigant-in Pro-Se to “a

27

higher legal standard” by insisting that Plaintiff forfeit her right to be heard in a higher Court and demanding the

28

litigant resolve this matter before the lower court. Should this be the case, such an Instruction would constitute a
CASE NO. 1:19-CV-01790-NONE-SKO - 2

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 3 of 10

1

violation of Plaintiff’s Constitutional Right of Due Process of Law. Simply stated it would curtail Plaintiff from

2

exercising her Constitutional Right to be heard before the United States Supreme Court.

3

Moreover, a review of the Court’s Docket further demonstrates that this aggrieved Plaintiff originally filed

4

her Complaint on December 23,2019. During that time Thirty-Two (32) interactions with the Court has occurred.

5

This evidentiary fact clearly demonstrates Plaintiff’s earnest efforts to receive her day in court. Plaintiff maintains

6

that from December 23,2019 until November 12th, 2020 the Eastern District Court had at its’ disposal several

7

means of resolving this dispute. Case Management Conferences, Evidentiary Hearings, Discovery Motions,

8

Mandatory Settlement Conference all were available at the Court’s discretion yet were never scheduled. Such legal

9

interactions are designed to assist the court in determining the true merits of the case by providing the court with

10

concrete evidence. Despite Plaintiff’s good faith efforts to seek relief from the Court, the Court Docket reflects that

11

the Court elected to “punish” the Plaintiff at the initial onset of Plaintiff’s Complaint by attempting to suppress die

12

evidence and insisting that the Litigant-in-Pro-Se be held to a higher legal standard. These actions caused Plaintiff to

13

endure further financial, emotional, and irreparable injuries and this time; inflicted by the hands of the Eastern

14

District Court.
Plaintiff’s evidence consists of witnesses, documents, e-mails, CD tape recordings none of which were ever

15

17

viewed by the Court because the Eastern District Court continued to suppress and deny Plaintiff’s Constitutional
\
Right to be heard. Thirty-Two (32) entries to the lower Court’s Docket demonstrate Plaintiff’s earnest effort to

18

comply with die Court’s rules as a layperson and a Litigant acting in Pro Se. As the moving party in this matter,

19

Plaintiff has sufficiently met the legal standard as a “Pro-Se-Litigant” and has more than earned her Constitutional

20

right to be heard. The Court would have a more transparent understanding of this case if it had only looked at the

21

evidence. May I hasten to add, this Plaintiff’s determination to litigate this case should not be viewed as a personal

22

affront against our esteemed Eastern District Court, but rather serves strictly as this litigant’s perseverance to seek

23

Justice within our judicial system wherever it can be found.

24

III

25

III

26

III

16

:

27
28
CASE NO. 1:19-CV-01790-NONE-SKO - 3

!

I

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 4 of 10

1

n. THE EVIDENCE SHALL GUIDE THIS CASE

2

The Court shall take notice that there remains a preponderance of evidence already submitted to the District Court

3

which clearly demonstrate that Defendants by and through their own admission (1) acted in “badfaith” by

4

separating plaintiff from her employment as a direct cause of a pattern of ongoing racism; and (2) these acts of

5

racism continued by the California State Personnel Board further demonstrate through a furtherance of their acts tha1

6

said racism is nothing less than systemic. The evidence will prove that all Defendants in this case willfully and

7

intentional violated Plaintiffs Constitutional rights as a direct violation of Title VII of the Civil Rights Act of 1964,

8

42 U.S.C. Section 2000e et seq., as amended.

9

In conclusion, it is important to acknowledge that Democracy is the greatest gift that all Americans have

10

fought and labored to achieve. Each of us are gifted with the responsibility to contribute to the society which we

11

have inherited. We all owe a debt of gratitude to those who have given their lives so that we might live in a

12

democracy. As a nation we define a celestial quilt comprised of many different shades and colors. Our job is to

13

become a more perfect union. To achieve this collective goal, we hold a reasonable expectation that our Courts will

14

apply the rule of law without out difference of race, sex, or political affiliation. This is the bedrock upon which

15

Democracy stands. To systematically force African Americans like myself, into abject poverty is a crime against our

16

lineage, our Republic, and our Democracy.

17

Californians now witness the voices of COVID-19 protestors informing and attesting to us all, they would

18

prefer to die rather than live in poverty. I am reminded of these words from the Founding Fathers as they refrained

19

“Give me liberty or give me death”. Yet for years African Americans continue to live in poverty not by choice, but

20

rather because of the absence ofjustice. This lawsuit is a prime example of the pain and suffering which has long

21

been visited upon all African Americans. The problem is systemic. We need not look farther than the Central

22

Valley. Here in the Central Valley less than 100 miles from the United States District Court, Eastern District we find

23

further historical evidence. The remnants’, of a once held African American Township at Allensworth that was

24

utterly destroyed by racism. This Court cannot ignore the voice of History. The Historical Evidence continues to

25

permeate throughout the counties, the cities, and within California Correctional Health Care Services Institutions

26

throughout the Central Valley. This is the history that continues to infuse racism against African Americans. To

27

ignore the many acts of racism would be a travesty to all residents of the Central Valley and would only serve to

28

undermine our American Democracy.
CASE NO. 1:19-CV-01790-NONE-SKO - 4

Case l:19-ev-01790-NONE-SKO Document 33 Filed 12/02/20 Page 5 of 10

1

.

This Court would show extreme bias if it were to remain silent in their receipt of the existing evidence

2

already presented as Exhibits in this case. The fact remains that experienced attorneys for the Defendants, as well as

3

Attorneys at the State Personnel Board willfully and deliberately failed to act on such basic legal tenants of law,

4

serves as further evidence that Defendants’ only motivation was to violate this Plaintiff’s Civil Rights. Whereas,

5

Plaintiff continued to research and further understands that the United States Eastern District maintains a shortage of

6

Federal Court Justices, this historical admission does not abort Plaintiff’s Constitutional Right to be heard. Given the

7

proper Discovery this instant Court may have discovered that this case would possibly be resolved without the need

8

to go to Trial. However, suppressing the evidence would only lead to a failed remedy.

9

The rule of law cannot be applied where there is no Discoveiy. The Court is far more aware of the need to

10

present evidence in deciding a case than a litigant stifled by oppression. Plaintiff maintains that the evidence in this

11

case is so egregious that a competent and litigious attorney could have solved this case in fifteen minutes. It is

12

baffling to think that the merits of die instant case were deliberately ignored in an apparent effort to burry this case,

13

thus resulting in a depravation of Plaintiff’s Constitutional Rights. For all of the reasons as stated herein, Plaintiff

14

respectfully request that the Court Set-Aside its latest Court Instruction for the purpose of protecting Plaintiff’s

15

Constitutional Right to file a Writ of Certiorari in the United States Supreme Court.

16

DATED:

Respectfully submitted,

17

ByV

18

JurreJltt. Domino, Ph.D.
Plaintiff in Pro Se

19
20

III

21

III

22
23
24
25
26
27
28
r a sf run i • i o.rv.n 17Qn.Nrwp SK,n g

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 6 of 10

l
MEMORANDUM OF POINTS NP AUTHORITIES
2
Plaintiff originally filed a Civil Complaint before this Court on December 23,2019. On February 3, Judge
3
Drozd petitioned and received an Order to unassign this case. Plaintiff maintains that the Court errored in applying
4
said Order retroactively. Plaintiff continued to make a good faith effort to cooperate with the Court. On May 29th,
5
2020 Plaintiff filed an “Ex Parte Motion In Lieu of Objections to Magistrate Judge’s Findings and
6
Recommendations.” By this application and based on solid evidence currently maintained within the Court’s file
7
incorporated by reference as Exhibit 1 and Exhibit 2; Plaintiff respectfully requested that the Court issue a
8
Temporary Order to reinstate Plaintiffs salary. By and through their own admission, Defendants separated Plaintiff
9
from her employment for Bad Cause. Defendants described their reason for separation as “Non-Punitive
10
Termination. As a result of Defendant’s actions Plaintiff has suffered (2) TWO years of loss income. But for
11
Defendants actions Plaintiff would not have suffered financial losses without recourse throughout a global
12
Pandemic. A review of the evidence further demonstrates that Defendants, each of them and all of them were
13
informed by Plaintiff of a pattern of racism directed by employees who were made to act on at the direction of the
14
employer. It is my genuine belief that had other employees foiled to cany out Upper Management’s illegal acts, they
15
also would have been fired. Therefore, there is no evidence that supports a claim of protection of Defendants due to

I

16
any employee acting without their knowledge and awareness. Instead, the evidence supports Plaintiff’s claim that
17
Defendants acted out of malice, racism, and retaliation. Such bad cause is evidenced by the Defendants total
18
contradiction of their written explanation by die California Correctional Health Care Services Professional
19
Credentialing Department, a copy of which has already been submitted to this Court. Plaintiff’s evidence includes
20
e-mails, documents, recordings made by the California State Personnel Board, witnesses, and writings previously
21
submitted to the Federal EEOC office.
22
Plaintiff is a United States Citizen entitled to the protection of Constitutional law. (Title VII of the Civil
23
I

Rights Act of 1964,42 U.S.C. Section 2000e et seq., as amended). The evidence will demonstrate that if in fact 100
24
Clinicians throughout the California Mental Health Correctional Health Care Services were in actuality out of
25
compliance, such a claim would have created a need to notify the Court in the form of a Class Action Lawsuit.
26
III
27
III
28
CASE NO. 1:19-CV-01790-NONE-SKO - 6

I

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 7 of 10

1

A review of the evidence will also demonstrate that in this instant case currently pending before this Court, the

2

California State Personnel Board failed to address legal issues pursuant to the Rule of Law. Instead the Personnel

3

Board insisted upon chasing red herrings throughout all Administrative reviews. A review of the actual CD of the

4

hearing will prove why the Board fail to meet its burden of proof.

5

6
7

DATED:

Respectfully submitted,

8

9

By>
June-M. Domino
Plaintiff in Pro Se

10
11

III

12

III

13

III

14
15
I

16
17
18
i

I

19
20

21
22
23
24
25

26
27
28

CASE NO. 1:19-CV-01790-NONE-SKO - 7
I

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 8 of 10

DECLARATION OF JUNE M. DOMINO

1
2

!

I, June M. Domino, declare as follows:

3

1.

I am the Plaintiff in the above-referenced matter. When I am dutifully called before the Court,

4

I am capable and would willingly testimony before the Court as a litigant acting in Pro Se. I declare

5

that I have personal knowledge and awareness of the facts as set forth below. When called as a

6

witness, I could and would competently testify thereto.

7

2.

On or about January 5,20201 received information from a reputable employee stating that a Cease

I

and Desist Order

8

9

had been issued to Defendants. This information is especially significant because Defendants

10

previously reported to the Federal EEOC Office that the Defendants had searched their files and no

11

such document existed.

12

3.

evidence that proved

13
I

14

a Cease and Desist Order at an earlier date was in fact entered as part of a Personnel File.

15

4.

16
!

17

essential evidence in an effort to avoid prosecution of this caise by and through the Federal EEOC

18

jurisdiction.

19

5.

This is not the first time that Defendants have misrepresent the evidence in this case. Previously
submitted and

21

currently located in the Court’s file for your consideration is Exhibit 1, (All Exhibits are incorporated

22

by reference herein) an e-mail from the Defendant’s Credentialing Department which proves that

23

Plaintiff was not required to re-credentiaL Thus, Plaintiff had one more year before becoming licensed.

24

6.

Defendants acted with malice and racism by setting in motion a Non-Punitive Termination which
caused this

25

I

This new evidence indicates that Defendants by and through their agents, willfully and
deliberately destroyed

20

I

On or about March 16,20201 learned that a reputable employee is in possession of concrete

26

Plaintiff irreparable harm. (Please refer to Exhibit 2)

27

7.

28

Defendants maliciously violated their own Order by not serving Plaintiff with Timely Notice of
Defendant’s decision to
CASE NO. 1:19-CV-01790-NONE-SKO - 8

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 9 of 10

1

separate Plaintiff from employment, while at the same time issuing Plaintiff an Administrative Time

2

Off Order. Please refer to Exhibit 3.

3

8.

4

Plaintiffs Ex Parte Motion.

5

The Court referred ruling on Plaintiff’s objection to the currently unassigned district judge.

6

9.

7

10. On June 12,2020 Plaintiff received a docket number from the Office of the Clerk for the United

8
9
10

On June 9,2020 Plaintiff filed a Notice of Appeal with the District Court.

States court of Appeals
for the Ninth Circuit.
11. On June 26,2020 the 9th Circuit Court of Appeal notified Plaintiff-Appellant that they could not

-11

!

On June S, 2020 Plaintiff received the District Court’s Order Granting a Partial acceptance of

hear this case because

12

the decision from die District Court was not final.

13

12. On July 6,2020 Plaintiff filed an additional 30-Day Extension of Time to File Second Amended

14

Complaint with the District

15

court due to a remainder level of review by the currently unassigned District Judge.

16

13. On Oct. 19,2020 the Appellate Court dismissed a Notice of Interlocutory Appeal. A review of the
Court’s Docket

17
18

demonstrates that Plaintiff has never filled a Interlocutory Appeal. Instead the Court continues to use

:

19

this term in an effort to discredit the merits of this case.

;

20

III

21

III

22
I

23
24

I

25
26
27
28
CASE NO. 1:19-CV-01790-NONE-SKO - 9

Case l:19-cv-01790-NONE-SKO Document 33 Filed 12/02/20 Page 10 of 10

l
2
3

14. On November 10,2020, the Appellate Court issued a mandate on an Appeal which was
mistakenly characterized by the

4

United States District Court, as evidence by the Face Page of Plaintiffs pleading.

5

15. Two days later, on November 12,2020 the lower Court issued an Instruction to Plaintiff that

6

would deprive this Litigant-In

7

Pro-Se from exercising her right to file a Petition for Writ of Certiorari before the United States

8

Supreme Court Plaintiff now comes before the Eastern District Court requesting that the Court Set-

9

Aside its latest Instruction for the purpose of pursuing said Writ.

10
11
12
13

I declare under penalty of perjury that the foregoing is true and correct
Executed on

in Madera. Call
UUAAA
BY:
June M. Ddmino, Ph.D.
Plaintiff in Pro Se

14
i

:

15
16
17
18
19
20

21
22
23
I

24
i

25

26
i

27
28

CASE NO. 1:19-CV-01790-NONE-SKO -10
:

Additional material
from this filing is
available in the
Clerk's Office.

